                            NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

Date:         September 30, 2011

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support

              Karen Tiplady, Director
              Division of Grants and Agreements

From:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

Subject:      Audit Report No. OIG-11-1-023
              Field Museum of Natural History


This memo transmits Withum Smith and Brown’s audit of NSF Award Numbers DEB-9978119,
DEB-0919333, and ANT-0838925 awarded to the Field Museum of Natural History. The audit
determines the allowability of NSF-funded costs claimed from September 15, 1999 to September
30, 2010, totaling approximately $862,055 and $179,205 in claimed cost share for the awards.

Except for the $123,663 of questioned NSF funded costs, the auditors determined that the costs
claimed by the Field Museum under award numbers DEB-9978119, DEB-0919333, and ANT-
0838925 and are allowable, allocable and reasonable for the NSF awards and appear fairly
stated; compliant with laws, regulations and award terms; properly accounted for and segregated.
Additionally, the auditors found that the Field Museum had properly segregated the NSF ARRA
funds awarded for DEB-091933 and ANT-0838925 in its accounting system and submitted
accurate and timely quarterly reports.
The auditors questioned $123,663 of claimed costs on award number DEB-9978119 because
Field Museum did not comply with either NSF’s or its own policies, when it claimed these costs
that it had not yet incurred. Further, the NSF appropriation supporting the NSF grant expired
prior to Field Museum paying for the claimed costs. The auditors also noted that Field Museum
did not adequately track and monitor costs by NSF budget category for award number DEB-
9978119. Also, as an other matter, the auditors determined that Field Museum’s system to
record and track equipment purchased with federal funds could be strengthened to ensure
adequate safeguards to prevent loss, damage or theft.
The Field Museum’s response, dated September 13, 2011, disagreed with the conclusions of the
findings. The Field Museum’s response is described after the findings and recommendations and
is included in its entirely in Attachment A.

Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

We are providing copies of this memorandum to the Assistant Director, Directorate for
Biological Sciences within the Office of the Assistant Director; and, the Deputy Division
Director of Environmental Biology (BIO/DEB). The responsibility for audit resolution rests
with the Division of Institution and Award Support, Cost Analysis and Audit Resolution Branch
(CAAR). Accordingly, we ask that no action be taken concerning the report’s findings without
first consulting CAAR at 703-292-8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed Withum Smith and Brown approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with Withum Smith and Brown and NSF officials, as
          necessary, to discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by Withum Smith and Brown to ensure compliance
          with Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

Withum Smith and Brown is responsible for the attached auditor’s report on the Field Museum
and the conclusions expressed in the report. We do not express any opinion on the Schedules of
Award Costs, internal control, or conclusions on compliance with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996.

Attachment

cc:       John C. Wingfield, Assistant Director, BIO/OAD
          Penelope Firth, Deputy Division Director, BIO/DEB




                                                2
                Field Museum of Natural History
c/o The Board of Trustees of the Field Museum of Natural History
                       Chicago, IL 60605




          Financial Audit of Financial Schedules and
              Independent Auditors’ Reports on
         National Science Foundation Award Numbers

                         DEB-9978119
                         DEB-0919333
                         ANT-0838925



           September 15, 1999 to September 30, 2010
EXECUTIVE SUMMARY
Executive Summary
The National Science Foundation (“NSF”) Office of the Inspector General (“OIG”) engaged
WithumSmith+Brown to conduct the audit of $862,055 in costs claimed and $179,205 in cost sharing
claimed as reported on the September 30, 2010 Federal Cash Transactions Reports (“FCTR/FFR”) and
cost sharing report submitted to NSF by Field Museum of Natural History (“Field Museum”) for award
numbers DEB-9978119, DEB-0919333, and ANT-0838925.

The Field Museum was incorporated in the State of Illinois on September 16, 1893 as the “Columbian
Museum of Chicago.” The Field Museums’ purpose is the "accumulation and dissemination of knowledge,
and the preservation and exhibition of objects illustrating art, archaeology, science and history. The Field
Museum was founded to house the biological anthropological collections assembled for the World's
Columbian Exposition of 1893. These objects form the core of the Field Museum's collections which have
grown through world-wide expeditions, exchange, purchase, and gifts to more than twenty million
specimens. The collections form the foundation of the Field Museum’s exhibition, research and education
programs, which are further informed by a world-class natural history library of more than 250,000
volumes. As of September 2010, the Field Museum had thirty-nine (39) active awards totaling $13.4
million.

The Field Museum was selected for audit because of the multiple small NSF awards managed for which
the Field Museum must ensure compliance with NSF and federal grant requirements at any given time.
Furthermore, the addition of the American Reinvestment and Recovery Act of 2009 (“ARRA”) awards to
the Museum's NSF portfolio added to the compliance requirements to which the Museum must adhere.

The objectives of our audit engagement were to: (1) determine whether Field Museum’s Schedules of
Award Costs (Schedules A-1 to A-3) present fairly, in all material respects, the costs claimed on the
FCTR/FFR – Federal Share of Net Disbursements and if the costs claimed including cost sharing, are in
conformity with Federal and NSF award terms and conditions; (2) identify and report instances on
noncompliance with laws, regulations, and the provisions of the award agreement(s) and weaknesses in
the Field Museum’s internal controls over compliance and financial reporting that could have a direct and
material effect on the Schedules of Award Costs and the Field Museum’s ability to properly administer,
account for, and manage its NSF ARRA and non-ARRA awards; (3) determine and report whether the
Field Museum properly accounts for and segregates its ARRA funded awards from its non-ARRA funded
awards in its accounting system; (4) determine and report whether the Museum provides accurate and
timely ARRA quarterly reporting under ARRA for NSF Awards DEB-091933 and ANT-0838925; and (5)
follow-up and report on recommendations identified in the Museum's FY 2006-2009 OMB Circular A-133
reports.

Except for the $123,663 (14% of total claimed costs) of questioned NSF funded costs, we determined that
the costs claimed by the Field Museum under award numbers DEB-9978119, DEB-0919333, and
ANT-0838925 and are allowable, allocable and reasonable for the NSF awards and appeared fairly
stated, compliant with laws, regulations and award terms, properly accounted for and segregated.
Additionally, our review found that the Field Museum had properly segregated the NSF ARRA funds
awarded for DEB-091933 and ANT-0838925 in its accounting system and submitted accurate and timely
quarterly reports.

We questioned $123,663 of claimed costs on award number DEB-9978119 because the Field Museum
expended funds after the period of availability of the funds had expired. For award number DEB-9978119,
the original funding expired and was financially cancelled by NSF on September 30, 2005. NSF informed
the Field Museum that it was acceptable to report encumbrances on the June 30, 2005 FCTR/FFR. In
response to the NSF guidance, the Field Museum claimed $231,781 costs for the period beginning
April 1, 2005 and ending June 30, 2005, which included current period expenses and $153,361 that had
not yet been incurred. As a result, the Field Museum claimed on its June 30 FCTR/FFR costs in advance
of actually incurring the expenses in order to avoid losing the funds that would expire on September 30,
2005. A review of the costs after the closing date of the FCTR/FFR found that $67,829 was expended
prior to the cancellation of the NSF appropriation and $123,663 (              plus related indirect costs of
           was expended through December of 2006, after the cancellation of the NSF appropriation and
funds were not available for expenditure.

We also noted a compliance and internal control deficiency in the accounting and reporting of NSF costs.
Specifically, the Field Museum did not adequately track/monitor costs by NSF budget category for award
                                                                                                            i
number DEB-9978119. The lack of a one-to-one relationship between Field Museum general ledger
accounts and NSF budget line items made it difficult to monitor budget to actual costs per the NSF award
budget without maintaining subsidiary records at the transaction level. For example, our review of the
closed grant DEB-9978119 budget to actual expenditures noted: 1) $50,545 was a subcontract cost
improperly recorded under consultant services; 2) $22,885 in stipends improperly recorded under dues,
fees and meetings; 3) $12,000 in contracted services improperly recorded as compensation; and 4)
$9,000 in permanent equipment improperly recorded as materials and supplies. Subsidiary records were
maintained; however, had the record been sufficient to effectively monitor the grant budget to actual
costs, these accounting errors would have been caught by the Field Museum and the subsidiary record
would have been corrected.

To address these compliance and internal control deficiencies, we recommend that the NSF’s Director of
the Division of Institution and Award Support (DIAS) address and resolve the following recommendations
made to the Field Museum: (1) establish and implement proper policies and procedures that will prevent
future claims for costs not yet incurred and claims charged against expired funds; (2) return the $123,663
in claimed costs, because these costs were incurred after the expiration of the appropriation when NSF
no longer had legal access to the funds; and (3) establish and implement proper policies and procedures
that will ensure the proper tracking of expenses by NSF budget line items to help ensure that claimed
costs are properly charged and the program objectives are being appropriately addressed.

The Field Museum responded to the draft report on September 22, 2011. In its response, Field Museum
management disagreed with the conclusions of the findings. Per Field Museum management, the
guidance provided by NSF was misleading, and had the guidance been clearly communicated,
extraordinary measures would have been pursued to successfully achieve the project goals. Additionally,
Field Museum believes that it was the responsibility of NSF, as the grantor and their cognizant Federal
agency, to provide adequate notice of the lapsing appropriation and accurate guidance for responding to
the circumstance. Additionally, per Field Museum management, after implementing improvements to the
general ledger code structure in 2004 and a financial software upgrade in 2009, the Field Museum does
adequately monitor costs by NSF budget category. Management conceded that prior to the 2004 general
ledger improvement, there was not a one-to-one relationship between the general ledger accounts and
the NSF award budgets; however, the budget categories were tracked by the principal investigators/fund
administrators on an excel spreadsheet.

The findings and recommendations remain as stated because the Field Museum was informed that the
money would lapse as of September 30, 2005 and the appropriation would be financially closed.
Additionally, the Field Museum does not have an adequate understanding of the availability period of
federal funding and has not developed policies and procedures that will ensure lapsed funds are handled
properly in the future. Furthermore, the budget to actual spreadsheet provided for review did not address
the necessary budget reclassifications noted in the finding.

The findings in this report should not be closed until NSF has determined that all the recommendations
have been adequately addressed and the proposed corrective actions have been satisfactorily
implemented.

For a complete discussion of audit findings, refer to the Report on Internal Control Over Financial
Reporting and on Compliance and Other Matters Based on an Audit of Financial Schedules Performed in
Accordance with Government Auditing Standards.




                                                                                                        ii
FIELD MUSEUM OF NATURAL HISTORY

TABLE OF CONTENTS

                                                                                                                                                       Page
Executive Summary ....................................................................................................................................... i


Introduction
Background ................................................................................................................................................... 1
Audit Objectives, Scope and Methodology ................................................................................................... 3


Internal Control and Compliance
Report on Internal Control over Financial Reporting and on Compliance and Other Matters based on an
   Audit of Financial Schedules Performed in Accordance with Government Auditing Standards ............ 6
Independent Auditors’ Report on Financial Schedules ............................................................................... 12


Financial Schedules and Supplemental Information
Schedule A-1 – Schedule of Award Costs (Award No. DEB-9978119) ...................................................... 14
Schedule A-2 – Schedule of Award Costs (Award No. DEB-0919333) ...................................................... 15
Schedule A-3 – Schedule of Award Costs (Award No. ANT-0838925) ...................................................... 16
Schedule B – Schedules of Questioned Costs ........................................................................................... 17
Schedule C – Summary Schedule of Awards Audited and Audit Results .................................................. 18
Notes to the Financial Schedules ............................................................................................................... 19


Attachments
Attachment A – Awardees’ Comments to Report ....................................................................................... 22
Attachment B – Follow-up of Prior Audit Findings ...................................................................................... 32
Attachment C – Exit Conference ................................................................................................................. 33

ACRONYMS
ARRA                           American Reinvestment and Recovery Act of 2009
CFR                            Code of Federal Regulation
DIAS                           Division of Institution and Award Support
FCTR/FFR                       Federal Cash Transactions Report/Federal Financial Report
Field Museum                   Field Museum of Natural History
FY                             Fiscal Year
GL                             General Ledger
MTDC                           Modified Total Direct Costs
NSF                            National Science Foundation
OIG                            Office of Inspector General
OMB                            Office of Management and Budget
PI                             Principal Investigator
U.S.C.                         United States Code
INTRODUCTION
BACKGROUND

An audit was performed on $862,055 in costs claimed and $179,205 in cost sharing claimed on the
Federal Cash Transactions Reports (“FCTR/FFR”) and cost sharing reports submitted to NSF by Field
Museum of Natural History (“Field Museum”) for National Science Foundation (“NSF”) award numbers
DEB-9978119, DEB-0919333, and ANT-0838925 for the period September 15, 1999 to September 30,
2010. Field Museum, as a Federal awardee, is required to follow the cost principles specified in 2 CFR
Part 230 (OMB Circular A-122), Cost Principles for Non-Profit Organizations and Federal administrative
requirements contained in 2 CFR Part 215 (OMB Circular A-110), Uniform Administrative Requirements
for Grants and Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations.

The Field Museum was incorporated in the State of Illinois on September 16, 1893 as the “Columbian
Museum of Chicago.” The Field Museums’ purpose was the "accumulation and dissemination of
knowledge, and the preservation and exhibition of objects illustrating art, archaeology, science and
history." In 1905, the Museum's name was changed to Field Museum of Natural History to honor the
Museum's first major benefactor, Marshall Field, and to better reflect its focus on the natural sciences.
The Field Museum was founded to house the biological anthropological collections assembled for the
World's Columbian Exposition of 1893. These objects form the core of the Field Museum's collections
which have grown through world-wide expeditions, exchange, purchase, and gifts to more than twenty
million specimens. The collections form the foundation of the Field Museum’s exhibition, research and
education programs, which are further informed by a world-class natural history library of more than
250,000 volumes.

Additionally, the Field Museum is an educational institution that offers multiple opportunities for both
informal and more structured public learning. Exhibits remain the primary means of informal education,
but throughout its history, the Field Museum has supplemented this approach with innovative educational
programs. The Harris Loan Program, begun in 1912, provides educational outreach to children, bringing
artifacts, specimens, and audiovisual materials, and activity kits to Chicago area schools. Curatorial and
scientific staff are maintained in the departments of Anthropology, Biology, Geology and Zoology. Each
department conducts basic research in the fields of systematic biology and anthropology and also has
responsibility for collections management, and collaboration in public programs. Since its founding, the
Field Museum has been an international leader in evolutionary biology, paleontology, archaeology, and
ethnography. The Field Museum operates on a calendar year (January – December).

Cost categories, approved budget, and claimed costs for the three (3) awards under audit were as
follows:

                                                                   Budgeted Costs
 Cost Categories             Total Budget       DEB-9978119         DEB-0919333         ANT-0838925
 Salaries and wages         $
 Fringe benefits
 Equipment
 Travel
 Participant support
 Materials and supplies
 Publication costs
 Consultant services
 Subcontracts
 Other direct costs
 Indirect costs
 Total                      $
 Cost sharing               $      179,205      $      179,205      $              -    $              -




                                                                                                           1
                                                   Claimed Costs through September 30, 2010
 Cost Categories            Total Claimed        DEB-9978119     DEB-0919333     ANT-0838925
 Salaries and wages
 Fringe benefits
 Equipment
 Travel
 Participant support
 Materials and supplies
 Publication costs
 Consultant services
 Subcontracts
 Other direct costs
 Indirect costs
 Total
 Cost sharing              $        179,205       $     179,205       $              -    $               -

Descriptions of the NSF awards we audited are as follows:

   •   Award DEB-9978119 – Bivalves – Research, Training, Electronic Dissemination of Data. NSF
       awarded DEB-9978119 to the Field Museum for the period September 15, 1999 to August 31,
       2008 in the amount of $778,880, with a cost sharing requirement of $179,205. In a joint program,
       involving biologists and laboratories from the around the world, the biologists combined their
       expertise to train a new generation of bivalve workers and to significantly to advance the
       systematics of the group. The research concentrated on the marine family Veneridae, a group of
       bivalves with more than 500 living species that form a key component in the world's clam
       fisheries. The project trained students at the graduate and postdoctoral levels and involved a
       wide range of approaches and techniques ranging from field collecting and comparative
       anatomical studies to deoxyribonucleic acid sequencing. Other educational efforts targeted
       undergraduate trainees and various audiences that could be reached through web publications
       and Field Museum programming. Promoting bivalve research worldwide was an important goal of
       this project. To make information about the species and associated data available to specialists
       and non-specialists alike, various bivalve databases, images, and keys were developed for
       electronic web dissemination.

       The award was for an initial five-year period intended to terminate on August 31, 2004. The
       award was subsequently amended three times to extend the termination date to August 31, 2008.
       The original award was for the amount of $749,634; however, a subsequent amendment
       increased the grant to $778,880 and a cost sharing requirement of $179,205.

       We conducted our audit of this award for the period September 15, 1999 to August 31, 2008.
       Cumulative disbursements for grant number DEB-9978119 reported to NSF for the audit period
       were $778,880. Field Museum also claimed $179,205 of cost sharing to NSF for the audit period.
       Cost sharing required for the award period was $179,205.

   •   Award DEB-0919333 – Phylogeny, Revisionary Taxonomy & the Fossil Record of Asiloid Flies.
       NSF awarded DEB-0919333 to Field Museum for the period August 1, 2009 to July 31, 2012 in
       the amount of $382,628. This award is funded under American Recovery and Reinvestment Act
       of 2009 (ARRA). This project deals with the species diversity, biogeography, and evolutionary
       relationships of three families of true flies (Dlptera): Aplloceridae, Asilidae, and Mydldae. The
       focus of this project is those species which are restricted to the arid environments in the southern
       Hemisphere and western North America, areas that are part of global biodiversity hotspots. This
       project will help to understand the diversification of these flies during the Cretaceous period
       coinciding with the diversification of flowering plants. In addition to scientific journals, the
       Investigators will publish their results online on the project web-site and in the Encyclopedia of
       Life, both of which are openly accessible. Tools will be developed and made available online to
       allow future scientists to identify species of all three families. Four undergraduate students will be
       trained in the taxonomy of true flies and molecular laboratory techniques. A graduate student
                                                                                                            2
        from Brazil will spend part of her dissertation studies at the Field Museum of Natural History
        working on taxonomic and phylogenetic projects on an entirely New World group of mydas flies.

        The ARRA award was for a three-year period intended to terminate on July 31, 2012. The award
        was for the amount of $382,628.

        We conducted our audit of this award for the period August 1, 2009 to September 30, 2010.
        Cumulative disbursements for grant number DEB-0919333 reported to NSF through
        September 30, 2010 were $77,043. Field Museum was not required to obtain cost sharing for this
        award.

    •   Award ANT-0838925 – New Research on the Mesozoic Vertebrate Faunas of the Beardmore
        Glacier Region, Antarctica. NSF awarded ANT-0838925 to Field Museum for the period
        September 1, 2009 to August 31, 2012 in the amount of $212,791. This award is funded under
        ARRA. This project continues research on Triassic and Jurassic faunas from the Beardmore
        Glacier region of Antarctica. Funds will be used to conduct a field season in Antarctica, prepare
        and study new materials recovered, continue preparation and study of dinosaur material collected
        from Mt. Kirkpatrick during the 2003-2004 Antarctic field season, and place these fossils in a
        refined stratigraphic and temporal framework.

        The ARRA award was for a three-year period intended to terminate on August 31, 2012. The
        award was for the amount of $212,791.

        We conducted our audit of this award for the period September 1, 2009 to September 30, 2010.
        Cumulative disbursements for grant number ANT-0838925 reported to NSF through
        September 30, 2010 were $6,132. Field Museum was not required to obtain cost sharing for this
        award.

AUDIT OBJECTIVES, SCOPE AND METHODOLOGY


Objectives:

The objectives of our audit engagement were to:

    1. Determine whether Field Museum’s Schedules of Award Costs (Schedules A-1 to A-3) present
       fairly, in all material respects, the costs claimed on the FCTR/FFR – Federal Share of Net
       Disbursements and if the costs claimed including cost sharing, are in conformity with Federal and
       NSF award terms and conditions.

    2. Identify and report instances on noncompliance with laws, regulations, and the provisions of the
       award agreement(s) and weaknesses in the Field Museum’s internal controls over compliance
       and financial reposting that could have a direct and material effect on the Schedules of Award
       Costs and the Field Museum’s ability to properly administer, account for, and manage its NSF
       ARRA and non-ARRA awards.

    3. Determine and report whether the Field Museum properly accounts for and segregates its ARRA
       funded awards from its non-ARRA funded awards in its accounting system.

    4. Determine and report whether the Museum provides accurate and timely ARRA quarterly
       reporting under ARRA for NSF Awards DEB-091933 and ANT-0838925.

    5. Follow-up and report on recommendations identified in the Museum's FY 2006-2009 OMB
       Circular A-133 reports.




                                                                                                       3
Scope and Methodology:

WithumSmith+Brown, under contract with the NSF OIG, audited NSF Award Nos. DEB-9978119,
DEB-0919333 and ANT-0838925 through the period September 15, 1999 to September 30, 2010. We
conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards (2007
Revision) issued by the Comptroller General of the United States; and the guidance provided in the
National Science Foundation OIG Financial Audit Guide (August 2007) as applicable.

Those standards and the National Science Foundation OIG Financial Audit Guide require that we plan
and perform the audit to obtain reasonable assurance about whether the amounts claimed to the National
Science Foundation as presented in the Schedules of Award Costs (Schedules A-1 to A-3), are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs (Schedules A-1 to A-3). An audit also includes
assessing the accounting principles used and significant estimates made by the Field Museum, as well as
evaluating the overall financial schedules’ presentation. We believe that our audit provides a reasonable
basis for our opinion.

The audit included a review of grant documents, financial and programmatic reports submitted to NSF
and data available from the Field Museum. The audit also included a review of the quarterly financial
reports submitted, with supporting documentation and interviews conducted with various employees at
the Field Museum.




                                                                                                       4
INTERNAL CONTROLS AND COMPLIANCE




                                   5
WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910-6331 USA
301 585 7990 . fax 301.585.7975
www.withum.com

Additional Offices in New Jersey
New York and Pennsylvania




                 National Science Foundation
                 Office of Inspector General
                 4201 Wilson Boulevard
                 Arlington, Virginia 22230


                                           REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
                                          AND ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT
                                             OF FINANCIAL SCHEDULES PERFORMED IN ACCORDANCE
                                                    WITH GOVERNMENT AUDITING STANDARDS

                 We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1 through
                 A-3), which summarize financial reports submitted by the Field Museum of Natural History (“Field
                 Museum”) to the National Science Foundation (“NSF”) for the awards listed below and claimed cost
                 sharing for award No. DEB-9978119 and have issued our report thereon dated September 22, 2011.

                                   Award Number                                  Award Period             Audit Period
                                   DEB-9978119                                09/15/99 to 08/31/08    09/15/99 to 08/31/08
                                   DEB-0919333                                08/01/09 to 07/31/12    08/01/09 to 09/30/10
                                   ANT-0838925                                09/01/09 to 08/31/12    09/01/09 to 09/30/10

                 We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 through A-3 in
                 accordance with auditing standards generally accepted in the United States of America; the standards
                 applicable to financial audits contained in the Government Auditing Standards (2007 Revision), issued by
                 the Comptroller General of the United States; and the National Science Foundation OIG Financial Audit
                 Guide, August 2007, as applicable.

                 INTERNAL CONTROL OVER FINANCIAL REPORTING

                 In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 to A-3) for the
                 period September 15, 1999 through September 30, 2010, we considered Field Museum’s internal control
                 over financial reporting as a basis for designing our auditing procedures for the purpose of expressing our
                 opinion on the financial schedules, but not for the purpose of expressing an opinion on the effectiveness
                 of the Field Museum’s internal control over financial reporting. Accordingly, we do not express an opinion
                 on the effectiveness of the Field Museum’s internal control over financial reporting.

                 Our consideration of the internal control over financial reporting was for the limited purpose described in
                 the preceding paragraph and was not designed to identify all deficiencies in internal control over financial
                 reporting that might be significant deficiencies or material weaknesses and therefore, there can be no
                 assurance that all deficiencies, significant deficiencies, or material weaknesses have been identified.
                 However, as described below in the findings and recommendations on internal control over financial

                                                                                                                             6
A member of HLB International. A world-wide organization of accounting firms and business advisers.
reporting, we identified a deficiency in internal control over financial reporting that we consider to be
material weaknesses and another deficiency that we consider to be a significant deficiency.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement
of the Field Museum’s financial schedules will not be prevented, or detected and corrected on a timely
basis. We consider the deficiency described in the findings and recommendations to be a material
weakness. [Finding 1]

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiency described in the findings and recommendations to be a
significant deficiency. [Finding 2]

COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether Field Museum’s financial schedules are free of
material misstatement, we performed tests of Field Museum’s compliance with certain provisions of
applicable laws, regulations, and NSF award terms and conditions, noncompliance with which could have
a direct and material effect on the determination of the financial schedule amounts. However, providing
an opinion on compliance with these provisions is not an objective of our audit, and accordingly, we do
not express such an opinion. The results of our tests of compliance disclosed instances of noncompliance
that are required to be reported under Government Auditing Standards and the National Science
Foundation OIG Financial Audit Guide; and are described in Findings 1 through 2, in the following pages.

Field Museum’s response to each of the findings identified in our audit are described after the findings
and recommendations and is included in its entirety in Attachment A. We did not audit Field Museum’s
response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of Field Museum’s management, NSF, Field
Museum’s cognizant Federal agency, the Office of Management and Budget, and the Congress of the
United States of America and is not intended to be, and should not be used, by anyone other than these
specified parties.

FINDINGS AND RECOMMENDATIONS

Finding #1. Costs Charged to an Expired Appropriation

The Field Museum claimed costs that were not yet incurred to prevent losing funding that was due to
expire and be do-obligated by NSF thereby reducing total grant funding by the expired amount. Grant
Number DEB-9978119, Amendment Number 000 was funded by Appropriation Number 0199. The
appropriation commenced in Fiscal Year 1999 and lapsed on September 30, 2005. Consequently, the
appropriation had to be financially cancelled by NSF on that date as mandated by 31 United States Code
(U.S.C.) §1552(a) and was no longer available to NSF to support the grant project.

NSF’s Division of Financial Management sent an email to the Field Museum stating that the grant award
funded by the Fiscal Year (FY) 1999 appropriation would lapse on September 30, 2005. NSF informed
the Field Museum that NSF would “financially close all awards funded with 1999 appropriations” and
requested that appropriate individuals be alerted to the situation. NSF stated that it was acceptable to
report encumbrances as costs on the FCTR/FFR when an award is due to be financially closed and
requested, if possible, that the Field Museum report final expenditures on the June 30, 2005 FCTR/FFR.
However, per the Division of Financial Management, NSF fully expected the awardee to report only those
                                                                                              th
expenses that would be incurred and posted to the accounting system by September 30 . Special
accounting policies or practices for expiring awards could not be implemented.


                                                                                                           7
Although not normal policy or procedure, the Field Museum claimed costs on grant number DEB-9978119
in response to NSF’s guidance that were not yet incurred to prevent losing funding that was due to expire.
On the June 30, 2005 FCTR/FFR, the Field Museum claimed $231,781 costs for the period beginning
April 1, 2005 and ending June 30, 2005, which included current period expenses and $153,361 that had
not yet been incurred. As a result, the Field Museum claimed on its June 30 FCTR/FFR costs in advance
of actually incurring the expenses in order to avoid losing the funds that would expire on September 30,
2005.

However, the Field Museum continued to incur costs after the funding was cancelled and no longer
available to NSF for expenditure. A review of the costs after the closing date of the FCTR/FFR found that
$67,829 was expended prior to the cancellation of the NSF appropriation and $123,663 (              plus
related indirect costs of         was expended through December of 2006, after the cancellation of the
NSF appropriation.

31 U.S.C. § 1502 states, the balance of an appropriation or fund limited for obligation to a definite period
is available only for payment of expenses properly incurred during the period of availability or completed
contracts properly made within that period of availability and obligated consistent with section 1501 of this
title. However, the appropriation of funds is not available for expenditure for a period beyond the period
otherwise authorized by law.

Additionally, per 31 U.S.C. § 1552, on September 30th of the 5th fiscal year after the period of availability
for obligation of a fixed appropriation account ends, the account shall be closed and any remaining
balance (whether obligated or unobligated) in the account shall be canceled and thereafter shall not be
available for obligation or expenditure for any purpose.

Finally, per the Field Museum, Grant Policy and Procedure, the Field Museum Grants Management uses
current grant expenditure data from the financial system to prepare accurate and complete financial
reports for periodic submission to the grantor for all Federal grants…and submits Federal financial reports
using current data from the financial system. Except for the June 30, 2005 FCTR/FFR report, we found
no other errors in the quarterly FCTR/FFR reports submitted during our audit period.

Thus, the Field Museum violated applicable federal appropriation laws, which prohibit charging an
                                  th       th
appropriation after September 30 of the 5 Fiscal Year after its period of availability for obligation ends.
The Field Museum also did not comply with generally accepted accounting principles and its own
procedures that indicate that only expenses incurred by the end of the reporting period can be claimed on
the FCTR/FFR. This reporting had no impact on the Field Museum’s financial statements since no entry
was recorded in their accounting records until the expenses were incurred.

Recommendation #1:

We recommend that the NSF’s Director of the Division of Institution and Accounting Support (DIAS)
request the Field Museum:

        (1) return the $123,663 in claimed costs, because these costs were incurred after the expiration
            of the appropriation when NSF no longer had access to the funds; and
        (2) establish and implement proper policies and procedures that will prevent future claims for
            costs not yet incurred and claims charged against expired funds.

Awardee Comments

The Field Museum disagreed with the conclusion of this finding. Per Field Museum management, the
guidance provided by NSF was misleading, and had the guidance been clearly communicated,
extraordinary measures would have been pursued to successfully achieve the project goals. Additionally,
Field Museum management believes that it was the responsibility of NSF, as the grantor and their
cognizant Federal agency, to provide adequate notice of the lapsing appropriation and accurate guidance
for responding to the circumstance.


                                                                                                           8
Auditor Response

The Field Museum was informed that the money would lapse as of September 30, 2005 and the
appropriation would be financially closed. Therefore, to avoid a similar situation in the future, the Field
Museum needs to understand the availability period of federal funding and develop policies and
procedures that will prevent this situation in the future. Accordingly, our finding and recommendation
remain as previously stated.

Finding #2. Insufficient Tracking System by Budget Category

Our review of the accounting and reporting of NSF costs revealed that the Field Museum does not
adequately track/monitor costs by NSF budget category. Because there is not a one-to-one relationship
between Field Museum general ledger accounts and NSF budget line items, it is difficult to monitor
budget to actual costs per the NSF award budget without maintaining subsidiary records at the
transaction level. For example, our review of the closed grant DEB-9978119 budget to actual
expenditures noted: 1) $50,545 was a subcontract cost improperly recorded under consultant services; 2)
$22,885 in stipends improperly recorded under dues, fees and meetings; 3) $12,000 in contracted
services improperly recorded as compensation; and 4) $9,000 in permanent equipment improperly
recorded as materials and supplies.

Accordingly, had the Field Museum effectively monitored their grant budget to actual costs, these
accounting errors would have been caught. Without a clear relationship between the approved NSF
budget and actual program costs there is the increased risk that funds may not be spent in accordance
with program objectives. Furthermore, since Modified Total Direct Costs (MTDC), used in calculating
indirect costs, represents total direct costs minus participant support, equipment and subcontract costs,
indirect costs may be improperly calculated.

OMB Circular A-110, Subpart C, Section 21(b)(1)(2) and (3) requires accurate disclosure of the financial
results, records that identify adequately the source and application of funds and effective control over and
accountability for all funds.

Field Museum personnel did not adequately supplement the standard accounting system with subsidiary
award records designed to properly facilitate accounting and tracking NSF costs by NSF approved budget
categories which resulted in grant accounting errors.

Recommendation #2:

We recommend that the NSF’s Director of the DIAS request the Field Museum establish and implement
proper policies and procedures that will ensure the proper tracking of expenses by NSF budget line items
to help ensure indirect costs are properly charged and the program objectives are being appropriately
addressed.

Awardee Comments

The Field Museum disagreed with the conclusions stated in this finding. Per Field Museum management,
after implementing improvements to the general ledger code structure in 2004 and a financial software
upgrade in 2009, the Field Museum does adequately monitor costs by NSF budget category.
Management conceded that prior to the 2004 general ledger improvement, there was not a one-to-one
relationship between the general ledger accounts and the NSF award budgets; however, the budget
categories were tracked by the principal investigators/fund administrators on an excel spreadsheet.

Auditor Response

A review of the budget to actual document maintained by the principal investigators/fund administrators
showed that all the reclassifications noted in this finding were necessary in order to assess costs by
budget line item and to properly calculate the indirect costs charged to the project. Therefore, this finding
and recommendation remain as previously stated.

                                                                                                           9
OTHER MATTERS

Physical Inventory Policies and Procedures Could be Strengthened

As of September 2010, the Field Museum had thirty-nine (39) active NSF awards totaling $13.4 million
and budgeted equipment totaling $1.4 million. Although the grants selected for audit had limited budgets
for equipment, the possibility for error is increased due to the large number of NSF awards active at the
Field Museum.

We noted the system in place to record and track equipment purchased with federal funds could be
strengthened to ensure adequate safeguards to prevent loss, damage or theft. Per the Field Museum, on
an annual or biennial basis, the Grants Compliance staff populates a spreadsheet (by department) with
current purchases from the general ledger account 563 Equipment Purchases > $5,000. The
spreadsheet, the Field Museums’ equipment record, contains prior year data and is updated with current
year purchase details from the general ledger. The updated spreadsheet is provided to the Principal
Investigator and/or authorized fund administrators to conduct a physical inventory of equipment
purchased over a five year period and to update the details (i.e. Description, Manufacturer, Model, Serial
Number, Location, Condition, etc.) required by OMB Circular A-110. Therefore, the individuals
responsible for purchasing and custody of the equipment also verify the existence of the equipment.

Currently, the Grants Compliance office does not perform an independent physical verification of the
information returned from the departments, but rather relies on the Principal Investigator and/or
authorized fund administrators to fill that function. The Field Museum contends that OMB Circular A-110
does not designate an individual or group that should be tasked with the physical verification nor does it
require an independent physical verification or sampling to ensure adequate safeguards. Additionally,
asserts that it is reasonable to task the principal investigators and authorized fund administrators to
conduct the physical inventory. Per the Field Museum, Principal Investigators and/or authorized fund
administrators are adequate because the layperson working in an administrative office of the Field
Museum would not be able to readily identify the item of equipment. In addition, the updated spreadsheet
is subsequently reviewed by the Grants Compliance Director immediately following the physical inventory
and also reviewed by Single Audit Act auditors every two years. The Field Museum should revise the
system to ensure adequate safeguards so that the individuals responsible for purchasing and custody of
the equipment are not responsible for verifying the existence of the equipment. NSF should follow-up
during audit resolution to determine if this issue has been adequately addressed.




September 22, 2011




                                                                                                       10
FINANCIAL SCHEDULES AND SUPPLEMENTAL
             INFORMATION




                                       11
WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910-6331 USA
301 585 7990 . fax 301.585.7975
www.withum.com

Additional Offices in New Jersey
New York and Pennsylvania




                 National Science Foundation
                 Office of Inspector General
                 4201 Wilson Boulevard
                 Arlington, Virginia 22230

                                     INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

                 We have audited costs claimed by the Field Museum of Natural History (Field Museum) to the National
                 Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR/FFRs) for the NSF awards
                 listed below. In addition, we audited the amount of cost sharing claimed on award number DEB-9978119.
                 The FCTR/FFRs, as presented in the Schedules of Award Costs (Schedules A-1 through A-3) are the
                 responsibility of Field Museum’s management. Our responsibility is to express an opinion on the
                 Schedules of Award Costs (Schedules A-1 through A-3) based on our audit.

                                    Award Number           Award Period                 Audit Period
                                    DEB-9978119       09/15/99 to 08/31/08         09/15/99 to 08/31/08
                                    DEB-0919333       08/01/09 to 07/31/12         08/01/09 to 09/30/10
                                    ANT-0838925       09/01/09 to 08/31/12         09/01/09 to 09/30/10

                 We conducted our audit in accordance with auditing standards generally accepted in the United States of
                 America; the standards applicable to financial audits contained in the Government Auditing Standards
                 (2007 Revision) issued by the Comptroller General of the United States; and guidance provided in the
                 National Science Foundation OIG Financial Audit Guide, August 2007, as applicable. These standards
                 and the guidance provided by the National Science Foundation OIG Financial Audit Guide require that we
                 plan and perform the audit to obtain reasonable assurance about whether the amounts claimed to NSF as
                 presented in the Schedules of Award Costs (Schedules A-1 through A-3), are free of material
                 misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
                 disclosures in the Schedules of Award Costs (Schedules A-1 through A-3). An audit also includes
                 assessing the accounting principles used and significant estimates made by Field Museum’s
                 management, as well as evaluating overall financial schedule presentation. We believe that our audit
                 provides a reasonable basis for our opinion.

                 The accompanying financial schedules were prepared to comply with the requirements of the National
                 Science Foundation OIG Financial Audit Guide as described in the Notes to the Schedules, and are not
                 intended to be a complete presentation of Field Museum’s financial position in conformity with accounting
                 principles generally accepted in the United States of America.

                 The Schedules of Questioned Costs (Schedule B) explains the $123,663 (14 percent of total claimed
                 costs) of NSF funded costs for award number DEB-9978119 that we questioned for allowability. These
                 questioned costs include subcontract, stipend, consultant, travel, publication, computer, material, and
                 supply costs that were necessary to complete the project, but had not been incurred prior to the
                 cancellation of the NSF appropriation; and the applicable indirect costs.

                                                                                                                       12
Questioned costs are: (1) costs for which there is documentation that the recorded costs were expended
in violation of the laws, regulations or specific award conditions; (2) costs that require additional support
by the awardee; or (3) costs that require interpretation of allowability by NSF’s Division of Institution and
Award Support. The final determination as to whether such costs are allowable will be made by NSF.
The ultimate outcome of this determination cannot presently be determined. Accordingly, no adjustment
has been made to costs claimed for any potential disallowance by NSF.

In our opinion, except for $123,663 of questioned NSF funded costs, the Schedules of Award Costs
(Schedules A-1 through A-3) referred to above present fairly, in all material respects, costs claimed on the
FCTR/FFRs and cost sharing claimed for the period September 15, 1999 to September 30, 2010, in
conformity with the provisions of the National Science Foundation OIG Financial Audit Guide, NSF Grant
Policy Manual, the terms and conditions of the NSF awards, and on the basis of accounting described in
the Notes to the Financial Schedules which is a comprehensive basis of accounting other than generally
accepted accounting principles. These schedules are not intended to be a complete presentation of
financial position in conformity with accounting principles generally accepted in the United States of
America.

In accordance with Government Auditing Standards and the provisions of the National Science
Foundation OIG Financial Audit Guide, we have also issued a report dated September 22, 2011, on our
consideration of Field Museum’s internal control over financial reporting and on our tests of its compliance
with certain provisions of laws, regulations, the NSF award agreements, and other matters. The purpose
of that report is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and the National Science Foundation OIG Financial Audit Guide
and should be considered in assessing the results of our audit.

Our audit was performed for the purpose of forming an opinion on the Schedules of Award Costs (Schedules
A-1 to A-3) taken as a whole. The accompanying Summary Schedule of Awards Audited and Audit Results
(Schedule C) is presented for the purpose of additional analysis, as required by the National Science
Foundation OIG Audit Guide. Such information has been subjected to the auditing procedures applied in the
audit of the Schedules of Award Costs, and, in our opinion, except for the $123,663 of questioned NSF
funded costs, is fairly stated, in all material respects, in relation to the basic Schedules of Award Costs.

This report is intended solely for the information and use of the Field Museum’s management, NSF, Field
Museum’s cognizant Federal agency, the Office of Management and Budget, and the Congress of the
United States of America and is not intended to be, and should not be used, by anyone other than these
specified parties.




September 22, 2011




                                                                                                          13
Field Museum of Natural History                                                                                                                   Schedule A-1
National Science Foundation Award Number DEB-9978119
Schedule of Award Costs
September 15, 1999 to August 31, 2008
Final

                                                                                                        Claimed Costs
                                                             (A)                     (D)                     After
                                     Approved              Claimed             Adjustments and         Adjustments and          Questioned         Schedule
        Cost Category                 Budget                Costs              Reclassifications       Reclassifications          Costs            Reference

Direct costs:
  Salaries and wages
  Fringe benefits
  Equipment
  Travel                                                                                                                                           B-1, Note 1
  Participant support                                                                                                                              B-1, Note 1
  Other

Other direct costs:
  Materials and supplies                                                                                                                           B-1, Note 1
  Publication costs                                                                                                                                B-1, Note 1
  Consultant services                                                                                                                              B-1, Note 1
  Computer services
  Subcontracts                                                                                                                                     B-1, Note 1
  Other                                                                                                                                            B-1, Note 1

Total direct costs                                                                                                                                 B-1, Note 1
Indirect costs                                                                                                                                     B-1, Note 2


Total                               $    778,880       $     778,880            $                 -    $         778,880       $    (123,663)          B-1

Cost sharing                        $    179,205       $     179,205 (C)        $                 -    $         179,205       $             -
(A) The total representing NSF funded costs claimed agreed with the expenditures reported on the FCTR/FFR– Federal Share of Net Disbursements as of the
    quarter ended September 30, 2008.
(B) Field Museum claimed indirect costs to NSF based on applying a             rate against claimed onsite MTDC and              rate claimed against offsite MTDC
    for all fiscal years in the audit period.
(C) The Field Museum claimed $179,205 of cost sharing.
(D) We have reclassified costs to record the costs in the appropriate NSF budget category. The costs were included in the Field Museum’s claim. Salaries and
    wages reclassification totaled $7,115 ($22,885 stipend - $30,000 consultant) and Consultant Services reclassification totaled $20,545 ($50,445 subcontract -
    $30,000 compensation).


The accompanying Notes to Financial Schedules are an integral part of this schedule                                                                            14
Field Museum of Natural History                                                                                                          Schedule A-2
National Science Foundation Award Number DEB-0919333
Schedule of Award Costs
August 1, 2009 to September 30, 2010
Interim

                                                                                                  Claimed Costs
                                                          (A)                                          After
                                     Approved           Claimed           Adjustments and        Adjustments and        Questioned        Schedule
        Cost Category                 Budget             Costs            Reclassifications      Reclassifications        Costs           Reference

Direct costs:
  Salaries and wages
  Fringe benefits
  Equipment
  Travel
  Participant support
  Other

Other direct costs:
  Materials and supplies
  Publication costs
  Consultant services
  Computer services
  Subcontracts
  Other

Total direct costs
Indirect costs


Total                             $    382,628      $      77,043                                $         77,043

Cost sharing                     $              -   $             -                              $                -
(A) The total representing NSF funded costs claimed agreed with the expenditures reported on the FCTR/FFR – Federal Share of Net Disbursements as of the
    quarter ended September 30, 2010.

(B) Field Museum claimed indirect costs to NSF based on applying a                rate against claimed MTDC for all fiscal years in the audit period.




The accompanying Notes to Financial Schedules are an integral part of this schedule                                                                  15
Field Museum of Natural History                                                                                                          Schedule A-3
National Science Foundation Award Number ANT-0838925
Schedule of Award Costs
September 1, 2009 to September 30, 2010
Interim

                                                          (A)                                     Claimed Costs
                                     Approved           Claimed           Adjustments and              After            Questioned        Schedule
        Cost Category                 Budget             Costs            Reclassifications      Adjustments and          Costs           Reference

Direct costs:
  Salaries and wages
  Fringe benefits
  Equipment
  Travel
  Participant support
  Other

Other direct costs:
  Materials and supplies
  Publication costs
  Consultant services
  Computer services
  Subcontracts
  Other

Total direct costs
Indirect costs


Total                             $    212,791      $       6,132                                $           6,132

Cost sharing                     $              -   $             -        $                -    $                -    $             -
(A) The total representing NSF funded costs claimed agreed with the expenditures reported on the FCTR/FFR – Federal Share of Net Disbursements as of the
    quarter ended September 30, 2010.




The accompanying Notes to Financial Schedules are an integral part of this schedule                                                                  16
Field Museum of Natural History                                                              Schedule B
National Science Foundation Award Number DEB-9978119
Schedules of Questioned Costs
September 15, 1999 to September 30, 2010

Note B-1
On the June 30, 2005 FCTR/FFR, the Field Museum claimed quarterly costs of $231,781, which included
current period expenses and $153,361 that had not yet been incurred. Details of the expenditures
indicated that $67,829 of the costs were expended prior to the cancellation of the appropriation; however,
the remaining $85,532 was expended subsequent to September 30, 2005. The funds appropriation
lapsed on September 30, 2005 and had to be financially closed by NSF. As a result, $85,532 in total
direct costs are questioned as noted below.



          Cost Category                   Amount             Reference

Direct costs:
  Travel                                                     Note B-1
  Participant support                                        Note B-1

Other direct costs:
  Materials and supplies                                     Note     B-1
  Publication costs                                          Note     B-1
  Consultant services                                        Note     B-1
  Subcontracts                                               Note     B-1
  Other                                                      Note     B-1

Total direct costs
Indirect costs                                               Note B-2

Total                                 $    (123,663)

Cost sharing                          $            -


Note B-2
As a result of costs questioned in Note B-1, we have also questioned indirect costs claimed by the Field
Museum as follows:

Total Direct Costs:                                    $   (85,532)
Minus:
Participant Support:
Subcontracts:
Modified Total Direct Costs:
Indirect Cost Rate:
Auditor Calculated Indirect Costs:                     $




The accompanying Notes to Financial Schedules are an integral part of this schedule
                                                                                                       17
Field Museum of Natural History                                                                    Schedule C
National Science Foundation
Summary Schedule of Awards Audited and Audit Results
September 15, 1999 to September 30, 2010

Summary of Awards Audited:
         Award Number                    Award Period                          Audit Period
        DEB-9978119                   09/15/99 to 08/31/08                 09/15/99 to 08/31/08
        DEB-0919333                   08/01/09 to 07/31/12                 08/01/09 to 09/30/10
        ANT-0838925                   09/01/09 to 08/31/12                 09/01/09 to 09/30/10



Summary of Questioned and Unresolved Costs:
   Award             Award          Claimed     Questioned       Questioned       Unresolved   Unsupported
  Number             Budget          Costs        Costs          Cost Share         Costs         Costs
DEB-9978119        $ 778,880    $               $ 123,663        $        -       $        -   $ 123,663
DEB-0919333        $ 328,628    $               $       -        $        -       $        -   $       -
ANT-0838925        $ 212,791    $               $       -        $        -       $        -   $       -



Summary of Non-Compliance and Internal Control Findings:
                                                             Amount of        Amount of            Amount of
                                                                NSF              NSF               Claimed/
                               Non-            Material,     Questioned       Questioned            Incurred
                          Compliance or       Significant,     Costs          Cost Share              Costs
       Condition         Internal Control?     or Other?      Affected         Affected             Affected
                         Non-Compliance
Costs Charged to an
                            and Internal       Material      $   123,663      $        -       $    123,663
Expired Appropriation
                              Control

Insufficient Tracking    Non-Compliance
System by Budget           and Internal       Significant    $        -       $        -       $         -
Category                     Control

Inadequate Physical      Non-Compliance
Inventory Policies and     and Internal         Other        $        -       $        -       $         -
Procedures                   Control




The accompanying Notes to Financial Schedules are an integral part of this schedule
                                                                                                             18
Field Museum of Natural History
National Science Foundation
Notes to the Financial Schedules
September 15, 1999 to September 30, 2010

1. Summary of significant accounting policies:
   Accounting basis
   The accompanying financial schedules have been prepared in conformity with NSF instructions which
   are based on a comprehensive basis of accounting other than generally accepted accounting
   principles. Schedules A-1 to A-3 have been prepared by the Field Museum from the FCTR/FFR
   reports submitted to NSF and the Field Museum’s accounting records. The basis of accounting
   utilized in preparation of these reports differs from accounting principles generally accepted in the
   United States of America. The following information summarizes these differences:

       Financial statements
       A statement of financial position and a statement of cash flows are not required by the National
       Science Foundation, Office of Inspector General.

       Equity
       Under the terms of the awards, all funds not expended according to the award agreement and
       budget at the end of the award period are to be returned to NSF. Therefore, the awardee does
       not maintain any equity in the award and any excess cash received from NSF over final
       expenditures is due back to NSF.
       Equipment
       Equipment is charged to expense in the period during which it is purchased instead of being
       recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
       the schedule of award costs include the cost of equipment purchased during the period rather
       than a provision for depreciation.
       Except for awards with nonstandard terms and conditions, title to equipment under NSF awards
       vests in the recipient, for use in the project or program for which it was acquired, as long as it is
       needed. The recipient may not encumber the property without approval of the federal awarding
       agency, but may use the equipment for its other federally sponsored activities, when it is no
       longer needed for the original project.
       Inventory
       Minor materials and supplies are charged to expense during the period of purchase. As a result,
       no inventory is recognized for these items in the financial schedules.
       Income taxes
       The Field Museum is exempt from income taxation under the provisions of Section 501(c)(3) of
       the Internal Revenue Code and a comparable State of Illinois statute. However, the Museum
       does have a nominal tax expense due to business activities unrelated to its exempt mission, such
       as specific items sold in the Museum’s stores.
   The departure from generally accepted accounting policies allows NSF to properly monitor and track
   actual expenditures incurred by the Grantee. The departure does not constitute a material weakness
   in internal controls.

2. NSF cost sharing and matching:
   The following represents the cost share requirement and actual cost share as of September 30, 2010:
     Award Number          Cost Share Required         Cost Share Claimed              Over/(Under)
     DEB-9978119              $     179,205               $    179,205                   $     0

3. Indirect cost rates:
   Award Number              Indirect Cost Rate                             Base
   DEB-9978119                                        MTDC represent total direct costs minus participant
   DEB-9978119                                 )      support, equipment and subcontract costs.
   DEB-0919333                                 )      (Subcontract costs capped at $25,000.)
   ANT-0838925                                 )

                                                                                                         19
Field Museum of Natural History
National Science Foundation
Notes to the Financial Schedules
September 15, 1999 to September 30, 2010

4. Subsequent Events
   Subsequent events related to Award Numbers DEB-9978119, DEB-0919333 and ANT-0838925
   occurring after the audit period dates have been evaluated through September 22, 2011, which is the
   date the financial statements were available to be issued. Based upon this evaluation, the Field
   Museum has determined that no significant events occurred which require disclosure in the audit
   report.




                                                                                                   20
ATTACHMENTS




              21
                                                                                                        ATTACHMENT A
Awardees’ Comments to Report




            Response by Field Museum ofNatural History to the

            Financial Audit of Financial Schedules and Independent Auditors'
            Reports on National Science Foundation Award Numbers DEB-
            9978119, DEB-0919333 and ANT-0838925

            September 15, 1999 to September 30, 2010


            Response to Finding #1. Costs Charged to an Expired AppropriaJion

            The Field Museum ofN atural History (Museum) management disagrees with the
            conclusions stated in finding number 1. The finding imputes a violation of federal
            appropriation laws to the Museum when in fact the Museum acted in a manner consistent
            with the National Science Foundation (NSF) guidance received when it reported
            encumbered funds as costs on its June 2005 FCTRJFFR. If not for misleading guidance
            provided by NSF, the Museum would not have pw·sued extraordinary measures, with the
            understanding costs were within the period of availability, in order to successfully
            achieve project goals for award number DEB-9978119.

            The findings charge the Museum with unjustifiably incurring costs against an
            appropriation after September 301h of the fifth fiscal year after its period of availability
            for obligation ended while ignoring that the Museum had no previous experience with
            awards subject to lapsed appropriation. Museum management does not agree that Federal
            standards require the Museum to demonstrate knowledge of, or experience interpreting,
            federal appropriation laws.

            It was the responsibility of the grantor, NSF, also the Museum's cognizant Federal
            agency, to provide the Museum with adequate notice of a lapsing appropriation and
            accurate guidance for responding to an uncommon set of circumstances. The NSF
            informed the Museum via email on July 11,2005 that award number DEB-9978119 was
            subject to a lapsed appropriation.


            The July 11,2005 email1 (see footnote for full text) from NSF on the subject of the
            lapsed appropriation stated in relevant part: "It is acceptable to report encumbrances as




                                                                                                                  22
                                                                                                       ATTACHMENT A
Awardees’ Comments to Report




            costs on the FCTR when a [sic] a~vard is due to be financially closed." lhe NSF clearly
            instructed field Museum in this email that it was acceptable to encumber funds subject to
            the lapsed appropriation and to report the e ncumbered costs on the final FCTR in advance
            ofthe lapse.

            As 11 result of this guidance, the Field Museum encumbered costs and then reported the
            encumbrances as advised on the June 2005 FCTR/FFR with a deadline of August 15.
            2005 - a mere 34 days after receiving NSF's formal notice of U1e laps ing appropriation.

            field Museum received this same guidance twice lrom NSF: via the July 11 , 2005 email
            and a day or so earlier when NSF initially contacted Field Museum by telephone to
            am10unce the lapsed appropriation. Virginia Hall, who was assigned to Illinois
            organi zations, in NSF's Cash Management and Ell.1 ema,l Accounting branch within U1e
            Office of Budget, Finance and Award Management (BFA) called to notify and guide the
            Musetun. Ms. Hall stated that Field Museum could take action to encumber funds and
            repoJ1 the encumbered funds as costs on the FCTR report in advance of the lapsing
            appropriation.

            Although the July I t, 2005 email did not define the term "encumbrances" nor specify
            how the Mw;eum should proceed in order to report encumbrances as costs, in the
            September 21, 2011 report NSF provides a new and distinct standard. The finding states,
            "However, per the Divis ion of Finan.cial Management, NSF full y expected the awardee to
            report only those expenses that would be incun·ed and posted to the accounting system by
            September 301h. Special accounting policies or practices for expiring awards could not be
            implemented."

            If the July 11, 2005 email providing guidance to the Museum had been as lucid in its
            instmction as is the NSF Division of Financial ManagerneJlt statement in the finding, then
            the Musetun would never have reported encumbered costs. The Museum did not initiate
            the possibility of encumbering costs on its own; the concept that costs subject to lapse
            might be encumbered was part of the guidance presented to the Museum by NSF in the
            July 11, 2005 email. Rather than stating, " It is acceptable to report encmnbranccs as
            costs on the fCTR ... " the email should have used the contemporary language provided
            by the NSF Division of Financial Management in this finding.

            In U1e absence of this 20 II restatement of the NSF' guidance, U1e Museum encumbered
            costs in a manner consistent with the generally-accepted definition. The accounting tenn
            'encumbrance' is generall y accepted to mean a commitment or obligation incurred by
            issuance of a purchase order or contract for goods or services. An encumbrance is
            not recognized as an expenditure as the items to be procured have not been received or
            paid for.

            ll1e Museum acted in a manner consistent with U1e guidance received from its own
            designated cognizant Federal agency as it responded to this unforeseen circumstance with
            minimal time to reflect or act. Management disagrees that it should have intuitively




                                                                                                                 23
                                                                                                  ATTACHMENT A
Awardees’ Comments to Report




            moved beyond the NSF guidance actually received, and instead should have been aware
            of and should have applied federal appropriation laws.

            Management asserts that the Museum has already established and implemented proper
            policies and procedures that prevent costs from being incmTed outside of an award's
            period of availability. Management attempts Lobe as knowledgeable as possible
            regarding federal grants laws and regulations, however, in tllis highly unusual
            circumstance, and in the absence of knowledge of or experience with lapsed
            appropriations, the Museum relied in good faith on the NSF guidance as stated to defiM
            how it should approach the period of availability.

            It bears mention again that NSF gave the Musemn just over 30 days notice when it
            charged the Musmm1 with bringing to an immediate close the initial $749,634 of a
            complex grant project, ongoing since August 1999 [or which original project fund~ were
            remaining of $231,781 and under which the associated proposed work was in progress
            and anticipated to continue for several years to come.

            Critical project goals were planned but not yet achieved. A supplemental award from
            NSF of $29,246 had recently been received on December 3, 2004 which ensured the
            continuation of award number DEB-9978119 through August 2005 and, in fact, the
            project continued through August 2008. The Museum had no reason to anticipate, prior to
            July 2005, that the award would end prematurely. Contemporaneously, the Museum
            submitted a no-cost ell.1ension request to NSF to ell.1end the award through August 2006.
            Tite no-cost ell.1ension was approved by NSF on July 18, 2005.

            Since 2006, award number DEB-9978119 has been subjected to an annual Division of
            Financial Management review under the NSF Monitoring Plan. Each year's review
            involved testing of the FCTRJFFR reports and the 2006 review specifically involved
            testing of expense transactions from the lapsed appropriation period. These audits were
            conducted by auditors under contract to and acting on behalf of NSF. ln 2006, the
            Museum provided additional infonnation to supp01t the encumbered costs as reported,
            yet neither auditors nor the NSF Division of Financial Management ever contacted the
            Museum to suggest it had misinterpreted NSF guidance or otherwise charged cosL':> to an
            expired appropriation as per this fmding.

            Management disagrees with the two-part recommendation.




            Response to Finding # 2. Insutncient Tracking Svstem bv Budget Categorv

            Museum management disagrees with the conclusions stated in fmding number 2 and
            insists that the Museum, after it implemented voluntary improvements to tlH: Museum's
            general ledger code structure in 2003-2004 and a financial software upgrade in 2009,
            does adequately track/monitor costs by NSF budget category.




                                                                                                            24
                                                                                                      ATTACHMENT A
Awardees’ Comments to Report




            The Museum's enhancements to its general ledger code structure occUlTed four years into
            award number DEB-9978119. ' n1e finding cited four accounting en·ors related to DEB-
            9978119 and attributed these to the Museum's inabil ily to effectively monitor its grant
            budget to actual costs. In fact. two of those costs cited in the finding as accounting errors
            were correctly cla~si lied. 111<: subcontract and penn anent equipment costs were applied
            accurately to the correct general ledger codes in existence at the lime the expenses
            occurred in March 2003 and November 2001 respectively. Award number DEB-9978119
            operated under a more nan·ow set of general ledger codes until the Museum's
            improvements to the general ledger code structure were implemented in January 2004.

            Had the Museum 's enhancements to the general ledger code structure been in place at the
            beginning of the award in 1999, the $50,545 Subcontract cost would have been applied to
            U1e Museum's general ledger code 560 - Subcontracts and the $9,000 Pem1anent
            Equipment cost would have been applied to the Museum' s general ledger code 563 -
            Pennanent Equipment.

            Management concedes that prior to these improvements implemented in 2004 there was
            not a one-to-one relationship between the Museum general ledger accounts and the NSF
            award budget Prior to 2004. the MLL~eum general ledger codes that con·esponded directly
            with NSF budget categories were these: Salaries and Wages- 501, Fringe Benefits- 505,
            Travel - 527, Indirect costs- 511 and Other Direct Costs: Materials and Supplies - 532.

            During 2003 and 2004, Management recognized the need to enhance the Museum' s
            general ledger code structure to assure its records " identify adequately the source and
            application of funds" to comply with the Federal standard in OMB Circular A-ll 0,
            Subprut C, Section 2l(b)(1)(2). Not only did tllis enhancement improve tl1e Museum' s
            ability to track actual costs by NSF approved budget categories, it facilitated the
            Musemus segregation of direct expenses in order to properly calculate Modified Total
            Direct Costs (MTDC) for the purposes of accurately assessing indirect costs to individual
            grants as well as for its rumual indirect cost rate proposal to NSF.

            1l1e Museum added the following general ledger codes and conununicated these changes
            to the general ledger code structure to museum-wide staff in a January 8, 2004
            memorandum. Newly created general ledger codes were: Subcontract- 560, Participant
            SuppOI1- 555, and Permanent Equipment (greater tl1an $5,000) - 563. These changes to
            U1e general ledger code structure reSLtlted in the segregation of actual costs by these NSF
            approved budget categories and improved control over and accountability for all funds.

            Post January 2004, the Museum had expanded its general ledger code structure to the
            point where a one-to-one relationship between its general ledger code and the NSF
            budget categ01y existed for all of the NSF budget catego•·ies except for budget category
            G. Other DiTeCl Costs.

            111e NSF Other Direct C<Jsts budget category is a broad budget category which is
            comprised of six distinct Jines of cost. While the Museum assigned a specific general
            ledger code to two of these six lines: Materials ru1d Supplies - 532 and Subcontracts -




                                                                                                                25
                                                                                                     ATTACHMENT A
Awardees’ Comments to Report




            560, it bad not assigned a specific general ledger code to the remaining four budget lines:
            Publication Costs/ Dissemination Costs, Consultant Services, Computer Services and
            Otl1er. ' n1ese remaining four budget lines are not as narrowly defined as the ones to
            which the Museum assigned distinct general ledger codes. It is apparent by the title and
            structure of the overall category "Other Direct Costs" that NSF deliberately assembled
            six disparate budget items under a single header.

            Additionally, the Museum made tl1<J following improvements and implemented the
            following policies and procedures designed to facilitate accounting and tracking of costs
            by NSF budget categories.

            Effective in January 2009, Management upgraded the Museum's financial software to
            one designed and implemented with features which allowed the input of grant budgets
            into the software to enhance the oversight of budget to actual costs. Previous software did
            not allow the input of a grant budget and therefore did not offer a ready comparison to
            budget v. actual costs. Now, grant budgets reside and are maintained in tl1e software.

            Grant budgets are input at the beginning of a grant, after consultation with the principal
            investigator and the autl10rized fund administrators during Field MlL~eum ' s grant set up
            meetings which precede the financial availability of grant.fhnds for expenditure. General
            ledger codes are established to con-espond to NSF budget categories and are assigned a
            general ledger code which represents a~ closely as possible a one-to-one relationship
            between the code and a budget line as previously outlined. Only those general ledger
            codes which correspond to NSF budget categories as identified during grant set-up arc
            opened in the fmancial software and a budget for each general ledger code is entered into
            the financial software.

            11"Lroughout the life of a grant, budgets are updated when approved budget modifications
            are received from a Federal agency. Accurate budgets reside in the software allowing for
            a comparison of budge! v. actual costs via a generated report.

            Field Museum principal investigators and authorized fund administrators exercise control
            over tile grant budget, select the appropriate general ledger code and submil purchasing
            paperwork to expend grant funds in accordance with the approved grant budget. Principal
            investigators track the approved budget and record expenditures, typically in Excel
            spreadsheets, when purchasing paperwork is submitted. Principal investigators and
            authorized fund administrators also monitor expenditures by NSF budget category by
            reviewing budget reports generated and compare budget v. actual expenditures.

            Again, the fmding reported four instances where costs were identified as improperly
            recorded. As staled previously, a.ll four ofthese instances involved grant number DEB-
            9978119. The period of availability for DEB-9978119 extended (rom September 1999
            tluough August 2008. A detailed explanation for each cost is presented below:

            1. $50,545 was a subcontract cost improperly recorded under consultant services




                                                                                                               26
                                                                                                    ATTACHMENT A
Awardees’ Comments to Report




            The $50,545 subcontract cost dated March 2003 was properly applied to the Museum's
            general ledger code 544 - Other outside services. ·n,is cost was applied before the
            general ledger code 560 for subcontract costs was created and announced in the January
            2004 memorandum. This subcontract expendinu·e was correctly applied in March 2003 to
            general ledger code 544- Other Outside Services under the control and general ledger
            code categories in existence at the time, therefore, no accounting error occurred in this
            instance.

            2. $22,885 in stipends improperly recorded under dues, fees and meetings

            Tlte $22,885 is comprised of two separate charges of $10,660.37 incurred in October
            2003 and $12,224.82 incurred in December 2005.

            The Museum 's payment approval fonn for $10,660.37 was originally coded for
            application to the Stipend general ledger code - 513 on the payment approval fonn by the
            principal investigator/ftmd administrator, but the general ledger code was changed in
            en·or before input into the financial software to the Dues, Fees and Meetings code - 522.

            Tlte Museum 's payment approval fonn for $12,224.82 references a purchase order on
            which the account string was cotTectly coded for application to the Stipend general ledger
            code - 513 by the principal investigator/fund administrator. When the pmchase order was
            entered into the software, the general ledger code was changed in en·or to the Dues, Fees
            and Meetings code- 522.

            Tltese appear to be data entry errors. However, principal investigators/ftmd administrators
            input actual costs into their tracking sheets using the general ledger code which they
            selected for the cost contemporaneous with the submission of paperwork to expend
            funds. They maintain a ready comparison of costs correctly identified against the NSF
            budget line items.

            3. $12,000 in contracted services improperly recorded as compensation.

            Tlte $12,000 is comprised of four separate charges of$3,000 incurred in July, August and
            November 2005 and July 2006. ·n1e Museum 's four payment approval fom1s submitted
            were originally coded for application to the Compensation to Individuals general ledger
            code - 504 on the payment approval fom1s by the principal investigator/fund
            administrator, but the general ledger code was changed in error before input into the
            financial software to the Other Outside (contractor) Services code - 544.

            Once again, these appear to be data entry errors. However, principal investigators/fund
            administrators input actual costs into their tracking sheets using the general ledger code
            which they selected for the cost contemporaneous witlt the submission of paperwork to
            expend funds. They maintain a ready comparison of costs cotTectly identified against the
            NSF budget Line items.


            4. $9,000 in permanent equipment improperly recorded as materials and supplies.




                                                                                                              27
                                                                                                         ATTACHMENT A
Awardees’ Comments to Report




            Tite $9,000 pennanent equipment cost dated November 2001 was properly applied to the
            Museum's general ledger code 532 - Materials and Supplies. Titis cost was applied
            before the general ledger code 563 for permanent equipment costs was created and
            amtounced in the January 2004 memorandum. Titis subcontract expenditure was con·ectly
            applied in November 2001 to general ledger code 532 - Materials and Supplies under the
            control and general ledger code categories in existence at the time, therefore, no
            accounting error occmTed in this instance.

            ll1e Museum made great strides in facilitating the tracking and accotmting of grants costs
            between September 1, 1999 and September 30, 2010. A one-to-one relationship between
            its general ledger code and the NSF budget category exists for aU of the NSF budget
            categories except four of the six budget lines under NSF budget category G. Other Direct
            Costs.

            ·n1e Grant Policy Manual NSF 95-26, 322(a) which applied to award DEB-9978119
            aUows the Museum flexibility in utilizing the NSF budget to best achieve project goals
            when it authorizes the Museum to move funds between direct cost budget categories at
            the Museum 's own discretion (except for certain categories that require prior approval,
            e.g. Participant support). It states, "If required in furtherance of the project, the grantee is
            authorized to transfer funds fi·om one budget category to another for allowable
            expenditures. Exhibit UT-1, however, highlights certain budget changes which may
            require NSF prior approval." l l1c current standard, as presented in the NSF Award and
            Administration Guide applicable to !he Museum 's more recent awards also tested in this
            report, has not changed significantly from the standard quoted above.

            Management asserts that improved policies and procedures in place on September 30,
            2010 ru·e adequate to meet the NSF st.andru·d quoted above and to ensure the accurate
            tracking of actual costs versus NSF budget line items so as to ensure that program
            objectives are being appropriately addressed.

            Regarding indirect costs, the September 21, 201 1 report does not state that the Museum
            improperly calculated or made errors in its calculation of indirect costs. Tite Museum
            asserts that its current policies and procedures are adequate to ensure that indirect costs
            are properly charged.

            Management disagrees with the recommendation.


            Comments regarding Other Matters. Phvsicallnvenlorv Policies and
            Procedures Could be S trenglhened

            'T1H:l OMB Circular A-ll 0 does not designate an indi vidual or group within an
            organization who is tasked with the physical inventory nor does it require an independent
            physical verilication or sampling of the physical inventory itself to ensure adequate
            safeguards are in place.




                                                                                                                   28
                                                                                                      ATTACHMENT A
Awardees’ Comments to Report




            Management disagrees with the comment and asserts it is reasonable to task Principal
            Investigators and authorized fund administrators who have full authority to conduct the
            grant project and expend grant funds to conduct the physical inventory of equipment in
            the context of the other controls employed by the Museum to safeguard its equipment as
            outlined below.

            It is critical to realize that much of the equipment purchased for research is specialized to
            such a degree that a layperson working in an administrative office of the Mtt~eum would
            not be able to readily identify the item of equipment by sight or ascertain its condition. In
            many cases, several components are arranged together to comprise a whole item of
            pennanent equipment. In these cases, it would be impractical and costly to disassemble
            U1e equipment in order for a layperson to locale a serialmunber to verify U1e identity of
            an item of equipment. 1ne Principallnvestigator and authorized fund administrators are
            trained in the use ofthe equipment, are most familiar with the project, the current
            utilization of, and the ongoing need for the equipment and can assess its condition.

            Furthermore, equipment at the $5,000 cost threshold is typically noi potiable and
            generally of a size that mi11imizes the risk it could be removed from the building without
            authorization.

            l11e Grants Compliance office provides checks and balances when it verifies that the
            physical inventory was conducted and reviews the updated equipment record (which is
            presented in the form of a spreadsheet). The Grants Compliance office identifies any
            incons istencies in the equipment record and then communicates witl1 the Principal
            investigator and/or Fund administrator to resolve each inconsistency.

            In addition, t11e Field Museum has other controls in place to insure adequate safeguards to
            prevent loss, damage, or theft of the equipment. There are security guards located at each
            entrance of the building. All museum staiT and volunteers are issued Field Museum
            photo ID cards. l11e ID cards are programmed by the security systems team to allow staff
            members' free access to pre-detemlined card-reader controlled areas of the building. IDs
            may be progran1med to allow access during certain times of the day, and may be set to
            expire on a specific date. Specific keys are issued at the request and approval of
            department managers I directors. However, before keys are issued, the staff member must
            sign for the keys and their identification is verified. When a stafr member's employment
            ends, his or her ID is retrieved and deleted from the access system.

            Keys to other more critical areas are maintained in various electronic key boxes located
            in non-public areas of the musetun. These keys are not to be removed from the premises.
            Access to key boxes is restricted to authorized personnel only. Authorized staff members
            are issued a code that will enable them to access the key box. Any set of keys removed
            will be electronically linked to the authorized staffmember.lfthe staff member fails to
            retum the keys by the end of U1c day, an email alert will be generated to the sectLrity
            systems team, the security systems manager, and security director regarding the status of
            the keys. Security systems will inunediately follow up wiU1 the staff member to retrieve




                                                                                                                29
                                                                                                           ATTACHMENT A
Awardees’ Comments to Report




           the keys_
               kcys_ When a stnffm
                              staffmember"s
                                       ernber"s emplo
                                                employment
                                                      yment ends.
                                                            cnds. all keys issued must be turned in
           prior to leaving the institution.

           Any staff or non-staff
                          Ilon-stalfperson
                                    person who wishes to remove any items from the museum should
           h<lve in his/her po~scssion
           h<lvc             possession 11a '"Field Muscum
                                                    Museum Door Pass:' This pass should be used for
           personal propeny,
                      property, museum equipment. and library books. There should be a description
           of      item. an "Approved" stamp, and a signature of
           o f the item,                                             oCthe
                                                                        the depanment
                                                                            department head or approved
           proxy. Protection Services officers stationed at   Ht aU
                                                                 HII doors have
                                                                           hHve been instructed to deny exit
           to anyone
               anyonc who is not in possession ofa  of a properly appro\'ed
                                                                   approved pass. The pass will be
           surrendered to the Drs
                                DPS officcr
                                      officer and a copy of    the pass wi ll be returned to the authorizing
                                                            oftbe
           departmcnt
           department thcthe nex t business day_

           Management believes that
           Managemt."l1t            tha t controls present at different
                                                              differen t levels of the organizati on are
           properl y designed to prevent or detect the potential misappropriation of assets on a timely
           properly
           basis and arc
                      lire consistent with the property management system requirements in OMB
           Circu lar A-IIO.
           Circular  A-lIO.




           I Complete text
                        tcxt of the National
                                    Natio nal Science Foundation lapsed appropriation
                                                                        appropria tion notification
           emai l to Field Museum dated July 11,2005_
                                                 11 ,2005 _




           Institution
           inst itulion Name          Inslilulion 10
                                      Institution
           Field Museum 01 Natural
                             Natural History 4002275000

           All National
               National Science Foundation (NSF) awards funded by Fiscal Year 1999
           Federal appropriations will lapse on September 30. 2C05.
                                                                 2{)05. In late
                                                                           latc
           September. we will financially close (deobligatc
                                                (deobligalc all unobligated balances)
           all awards funded with 1999 appropriations.
                                         appropriat ions.

               follow ing award(s} to your organization are funded by FY 1999
           The following
           appropriations: 9978t 19
                           9978119

           In 1990.
              199{). the US Congress enacted legislation (§1 405(a) of Public Law
           101-510
           10t-510 amended 31 USC §§1551-1557) to requ ire that al l Federal agencies
           financially
           financia lly close fixed year appropriation accounts and cancel
                                                                    cancel any
           rema ining balances by September 30th 01 the 5th year after the period of
           remaining




                                                                                                                     30
                                                                                          ATTACHMENT A
Awardees’ Comments to Report




            availability began. The federal fiscal year, not the effective d.ate of the
            award, determine when the appropriation will lapse.

            Please alert the appropriate principle investigator's (or project
            director) department of this situation. It is acceptable to report
            encumbrances as costs on the FCTR when a award is due to be financially
            closed. If possible, please report final expenditures on the June 30,
            2005 FCTR. If necessary, w e can create a preliminary September FCTR for
            you in late August to report final cost on the above awards. We must have
            final expenditure figures by September 15, 2005. NSF will not accept
            additional costs against this award on the September 30, 2005 FCTR.

            Please contact me if you need additional information.

            Michael (Mike) Howe
            Head, Institution Ledger Section
            Division of Financial Management
            National Science Foundation

            Ph: 703-292-8285
            Fax: 703-292-9005
            E-mail: mhowe@nsf.gov




                                                                                                    31
                                                                                       ATTACHMENT B
Follow-up of Prior Audit Findings

The Field Museum has not been audited by NSF, but the programs have been audited under OMB
Circular A-133. The A-133 Single Audit covering grant awards FY’s 2007, 2008 and 2009 did not identify
any finding related to NSF or any other awards. The financial statement audit of the Field Museum for FY
2008 did note that the Field Museum was lacking an enterprise-wide risk assessment program that
identified fraud and other risk factors. During the audit, we found that the Field Museum did address the
issue which was subsequently cleared by the auditors.




                                                                                                      32
                                                                              ATTACHMENT C
Exit Conference

An exit conference was held on August 12, 2011 via teleconference. Preliminary findings and
recommendations were discussed with those in attendance. The Field Museum was informed that the
preliminary findings and recommendations were subject to final review by NSF and the report may
include additional findings, recommendations, and/or omit certain items discussed.

Attendees:




Billy McCain, Audit Manager, National Science Foundation
Nga T. Vo, Audit Manager, National Science Foundation




                                                                                            33
        HOW TO CONTACT
THE OFFICE OF INSPECTO GENERAL




            Internet
         www.oig.nsf.gov


          Email Hotline
           oig@nsf.gov


           Telephone
          703-292-7100

   Toll-Free Anonymous Hotline
           800-428-2189

              Fax
          703-292-9158

                Mail
    Office of Inspector General
   National Science Foundation
   4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
